No.
IN THE SUPREME COURT OF THE UNITED STATES

OSCAR PENA TRUJILLO, Petitioner,
vs.
STATE OF ARIZONA, Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE ARIZONA SUPREME COURT

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Petitioner Oscar Pena Trujillo requests leave to file the accompanying Petition
for Writ of Certiorari without prepayment of costs and to proceed in forma pauperis.
Petitioner has been granted leave to so proceed before the Arizona Superior Court,
Arizona Court of Appeals, and Arizona Supreme Court. Petitioner does not have
financial resources, and the Pima County Public Defender's Office was appointed by
the Arizona Superior Court to represent Petitioner in his trial and appeal in this case.
Respectfully submitted:

0 :.;,.er 16, 2020.

-ER
_
Pim
Public Defender's Office
33 N. Stone Ave., 21St Floor
Tucson, Arizona 85701
(520) 724-6800 voice
david.euchner@pima.gov
Attorney for Petitioner Oscar Trujillo

COURTS IN PIMA COUNTY. ARIZONA
ARRAIGNMENT ORDER
AND ORDER RE
APPOINTMENT OF ATTORNEY

15 JUN 18 P11 2:02
J. GlAtAirlirlli. DEPUTY
Case No.
CR20152255-001

State of Arizona vs. Oscar Pena Trujillo

E

Your next court date is the Case Management Conference at Superior Court, 110 W. Congress,
Tucson, Az. on
July 20, 2015
at 9:00
AM

Z Your case is assigned to Judge

Howard Fell

Div.# SR.

IT IS FURTHER ORDERED:
, Ph.# 52U l24 - Gtatc.
is appointed the attorney
171 (1-)15) attik.
for the defendant for all proceedings through the filing of a Notice of Appeal if required. Contact
attorney within 7 days
®. The defendant must pay a $25 A.R.S. § 11-584 assessment and

gj

is attorney fees of $

L100

The defendant must pay the fees & assessment at the rate of $ S.0
per month, starting
or 0 the payment terms to be set by the assigned judge.
921^-\ 1 20\5

0 The defendant go to OCAC on
1905 Tucson, Az., 85701. for review of Attorney Fees.

at

at 33 N. Stone, Suite

0 The request for a court-appointed attorney is denied.
The parties shall comply with Rule 16.4, Rule of Crim. Pro. Twenty-five (25) days from this date
July 13, 2015
v

rze

JUDGE/ OMMIS , ER4AGISTRATE

June 18, 2015
DATE

IF MY REQUEST FOR A COURT APPOINTED ATTORNEY HAS BEEN DENIED, I KNOW I CAN ASK THE
COURT TO RECONSIDER MY REQUEST AT A LATER TIME. IF I DISAGREE WITH THE FEES,
ASSESSMENT OR PAYMENT TERMS, I KNOW I MUST REQUEST A REVIEW HEARING WITHIN 10 DAYS
I KNOW ANY FAILURE TO COMPLY WITH THE PAYMENT TERMS MAY RESULT IN COURT ACTION
AGAINST ME. IN ADDITION, I KNOW THE COURT HAS THE OPTION OF CIVIL LAWSUITS TO GARNISH MY
WAGES AND ATTACH MY PROPERTY.
I KNOW MY FAILURE TO COMPLY WITH ANY OF MY RELEASE CONDITIONS, INCLUDING THE
ABOVE, CAN CAUSE A WARRANT TO ISSUE FOR MY ARREST. I KNOW IF I FAIL TO APPEAR AT COURT
THE COURT CASE AND ANY TRIAL CAN CONTINUE IN MY ABSENCE.
I AGREE TO GIVE NOTICE OF ANY CHANGE OF MY ADDRESS, PHONE OR WORK TO THE COURT
WITHIN FIVE (5) DAYS OF THE CHANGE. I REALIZE ONLY THE BOXES CHECKED ABOVE APPLY.
OCAC Staff Use Only: Defendant did not
Appear for scheduled Attorney Fee Review.
Initials

DATE

DEFENDANT

35 jlr-sc (08/07)

White - Original File

Yellow - Defendant Copy

FILED
TONI HELLON
CLERK, SUPERIOR COURT
6/22/2015 11:27:48 AM
By: Marshall Blanchard

ARIZONA SUPERIOR COURT, PIMA COUNTY
HON. ANNE ELSBERRY

CASE NO. CR20152255-001

COURT REPORTER: Patricia Calabro
Courtroom - 796

DATE:

June 18, 2015

STATE OF ARIZONA
VS.
Iskra M Uzunova, Esq. for Dean Brault, Esq.
counsel for Defendant

OSCAR PENA TRUJILLO
Defendant

MINUTE ENTRY
ARRAIGNMENT
Defendant present, out of custody.
The defendant having been arraigned this date,
IT IS ORDERED as follows:
Entering a not guilty plea on behalf of the defendant and setting a Case Management Conference on
Monday, July 20, 2015, at 9:00 AM This case is individually assigned to HON. HOWARD FELL,
DIVISION SR.
The defendant is advised that his/her failure to appear for trial could result in the trial proceeding in
his/her absence.
Confirming the public defender as counsel for the defense.
Defendant shall provide current address and current telephone number to his/her defense attorney within
48 hours.
Defendant to meet with defense counsel within 25 days from arraignment.
Failure to contact and meet with defense counsel could result in defendant's revocation of release.
Assessing attorney's fees in the amount of $400.00, payable at the rate of $80.00 per month commencing
Wednesday, July 22, 2015. Money orders must be made payable to Clerk of the Superior Court and
brought to the Clerk of the Superior Court at 110 W. Congress, Room 152.
Assessing a $25.00 A.R.S. fee.
Affirming defendant's prior release conditions.
Bond previously posted is affirmed.
FILED IN COURT: Financial Statement; Order Appointing Counsel/Order; Disclosure;
cc:

Hon. Howard Fell
Dean Brault, Esq.
Clerk of Court - Accounting Unit
County Attorney
Office of Court-Appointed Counsel
Pretrial Services

Marshall Blanchard
Deputy Clerk

